WAIVER

SUPREME COURT OF THE UNITED STATES

Trevon Wiley | Louisiana

ra | bas a

 

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following tespondent(s):

 

Please check the appropriate box:

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

I am not presently a member of the Bar of this Court. Should a response be requested. the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,

  
 
 
  
  

Signature:

Date:

  

Firm

Address ee
City & State [eroma, Louisiana _ | Zip [roose _

Prone 804-961-252 |i dalemand@ipdaus

 

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
pame’s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is is required.

ee}

 
 

Paut D. Connick, JR.

District ATTORNEY
Twenty-Fourt Jupiciat District
Paris Or JEFFERSON

Marearet E. Hay State Or LouisiANA 200 Dersicny Street
First AssisTANT GRETNA, LA 70053
Disrricr Arrorney May 3, 2021 Puone: (504) 368-1020

Clerk of Court

United States Supreme Court
1 First Street NE
Washington, DC 20543

Re: — Trevon Wiley v. Louisiana
U.S. Supreme Court No. 20-7822

Dear Sir/Madam:

Enclosed please find the Waiver to be filed in the above captioned case.

Very truly yours,

Darten Allemand
Assistant District Attorney
DA/BB

Enc.

Cc: Trevon Wiley #557602, Cypress-3, Louisiana State Penitentiary, Angola, Louisiana
70712
